Semiannual Report
to the Congress




     October 2010
In the waters off the gulf coast, an oil soaked pelican
evades captors (photo courtesy of U. S. Coast Guard). Like
many other Federal organizations, the Office of Inspector
General has been heavily involved in the aftermath of the
Deepwater Horizon oil spill. We have considered numerous
factors that played a role in the events leading to the spill.
Some of our work is presented in the October Semiannual
Report to the Congress.
Staff               	   Contents				            October 2010

Editorial           	   About DOI and OIG			                ii
Donald Cairns
Robert Gettlin
Joann Gauzza
                    	   Message From the
Mary Maruca         	   Inspector General	 			             iii
Scott Swanson

Images
                    	   OIG Operating Principles		         v
Bryan Brazil
Stock Photography   	
U.S. Coast Guard
                    	   OIG Initiatives					                1
Production          	
Mary Maruca         	   Significant Narrative Summaries	    9
Visit us at:

www.doioig.gov      	   Appendices					                   26




                                                                 i
     About DOI and OIG

         The U.S. Department of the Interior (DOI) is a large, decentralized agency with more than
     67,000 employees and 236,000 volunteers located at approximately 2,400 operating locations across the
     United States, Puerto Rico, U.S. territories, and freely associated states. DOI is responsible for 500 million
     acres of America’s public land, or about one-fifth of the land in the United States, and 56 million acres of
     Indian Trust lands. DOI also has responsibility for a variety of water and underwater resources, including 479
     dams and 348 reservoirs and approximately 8,526 active oil and gas leases on 44 million acres of the Outer
     Continental Shelf. Approximately 30 percent of the Nation’s energy production comes from projects on
     DOI-managed lands and offshore areas. DOI scientists conduct a wide range of research on biology, geology,
     and water to provide land and resource managers with critical information for sound decisionmaking. DOI
     lands also provide outstanding recreational and cultural opportunities to numerous visitors worldwide.

         The Office of Inspector General (OIG) promotes excellence, integrity, and accountability in
     these DOI programs. With fewer than 300 employees, the organization is driven by a keen sense of mission
     and dedicated to providing products and services that impact DOI mission results.




       Bon Secour National Wildlife
       Refuge in Alabama is part of a
       delicate coastal dune ecosys-
       tem. It provides approximately
       7,000 acres as refuge for
       migratory birds, nesting sea
       turtles, and other species. It
       participated in the oil spill
       clean-up that followed the
       Deepwater Horizon explosion.




ii
                                                                                          Back to Toc
Message from the
Inspector General

    On April 20 of this year, the explosion on the Deepwater Horizon drilling rig in the
Gulf of Mexico and the resulting oil spill engaged many sectors of the national and
international community. The U.S. Department of the Interior and many of its bureaus
have been central players in containing the massive spill, mitigating damage to the
environment, and determining how best to improve oil and gas industry oversight and safety.

    The OIG has been on the front lines in this process. Our employees—auditors,
investigators, and numerous other OIG professionals—have pioneered new ways of
working together to help understand what happened in the Gulf of Mexico and how
best to prevent such occurrences in the future. Within 10 days of the explosion, Secretary
Salazar created the Outer Continental Shelf (OCS) Safety Oversight Board (Board), which he
charged with providing recommendations to improve and strengthen DOI’s overall manage-
ment, regulation, and oversight of OCS operations.

     Knowing the professionalism and experience of OIG employees, I volunteered their
assistance in gathering the data and conducting the analysis on behalf of the Board. They
worked together across agency and DOI lines to come up with observations and
recommendations in record time. Information that might otherwise have taken a year to
refine was compiled in the form of briefing papers in a matter of 9 weeks. Indeed, the
core of the Board’s report came from the high-quality work delivered by the OIG.

    The OIG’s ability to respond rapidly and effectively to changing events may be due,
in part, to some of the organizational and managerial realignments we have undertaken. For
much of this year, we have engaged in a strategic reevaluation of how we accomplish
our mission as an organization, including employees from all disciplines and geographic
locations. Employees have had opportunities to voice their opinions and share their ideas.
Their contributions have been of considerable value. A majority of OIG employees—from
senior executives to interns—have participated in and benefitted from this undertaking.




                                                                                              iii
         We are poised to launch the first working release of our new Strategic Plan. It will
     be a dynamic strategic planning system that will allow the organization to evolve, while
     keeping our focus on what is most important, so that we can continue to respond
     effectively in challenging times.




                                            Mary L. Kendall
                                            Acting Inspector General




iv                                                                      Back to Toc
OIG Operating Principles

Mission
    The mission of the OIG is to provide independent oversight to pro-
mote integrity, accountability, effectiveness, and efficiency within the
programs, operations, and management of DOI.

Values
     The OIG operates as an independent oversight organization respon-
sible to the Secretary, the Congress, and the American people. We must
observe and exhibit high ethical standards and have the courage to tell our
customers and stakeholders what they need to know, and not what they
simply wish to hear. Our core values help us to achieve our responsibili-
ties and maintain this high ethical standard. We:

   •Place our highest value in the integrity of our employees
       and our products;

   •Strive for continuous improvement; and

   •Believe in the limitless potential of our employees.

Responsibilities
     The OIG is responsible for independently and objectively identifying
risks and vulnerabilities that directly impact DOI’s ability to accomplish
its mission. We are required to keep the Secretary and the Congress fully
and currently informed about problems and deficiencies relating to the
administration of DOI programs and operations. Effective implementa-
tion of this mandate addresses the public’s demand for greater account-
ability and integrity in the administration of Government programs and
operations and addresses the demand for programs that work better, cost
less, and get the results Americans care about most.

Activities
     The OIG accomplishes its mission by conducting audits, inspections,
evaluations, assessments, and investigations relating to DOI programs
and operations. Our activities are tied directly to DOI major responsibili-
ties and are designed to assist DOI in developing solutions for its most
serious management and program challenges, most notably cross-cutting
or DOI-wide issues. These activities are also designed to ensure that we
keep critical issues prominent, thus providing opportunities to influence
key decisionmakers and increase the likelihood that we will achieve
desired outcomes and results that benefit the public.



                                                                                         v
                                                                           Back to Toc
Office of Inspector General


             Chemical dispersants comprised one of the tools used
             during the Deepwater Horizon oil spill. Image courtesy of
             the U.S. Coast Guard.
OIG Trends, Themes, and Initiatives
     Americans may have breathed a collective sigh of relief when the
Macondo well at the Deepwater Horizon site was plugged, but for Feder-
al employees in the Gulf of Mexico and elsewhere much work remains.
As reports on administrative, safety, and other failures begin to accumu-
late, DOI and the new Bureau of Ocean Energy Management, Regulation
and Enforcement (BOEMRE) are taking steps to revamp oversight
and regulatory efforts that will safeguard future oil and gas exploration
in the OCS.

     Events like those involving the Deepwater Horizon challenge us
to review the ways in which we collectively make our decisions. They
also urge us to consider the ways in which decisions are communicated
among those with whom and for whom we work. Many organizations
fail to pause, to look at the big picture, until a crisis forces them to do so.
This is one reason why the OIG is committed to taking a different ap-
proach. The OIG is developing a strategic planning system that includes
employee input and that ultimately will help us keep our focus on the big
picture regardless of the challenges or crises we face.

     Although making changes on an organizational scale can be daunt-
ing, we believe that it is in the best interests of our employees and the
overall effectiveness of our mission to do so. After a year of organiza-
tional work on mission and goals development, we have institutionalized
our strategic process through the creation of a Strategy Management
Office. The small office staff will oversee the incorporation of a strate-
gic focus into daily OIG activities. It will be tasked with managing the
strategic planning and implementation process. It will accomplish this
through manager and employee teams. A primary goal is to ensure that
the strategic planning system helps us stay focused on the issues most
important to our organization.

    Conducting the business of Government in a strategic manner has
been a significant aspect of OIG work the past 6 months. We have
actively participated with DOI, responding to Secretary Salazar’s com-
mitment to redirect and improve oversight within the former Minerals
Management Service, now BOEMRE. Using the analytical strengths
of OIG employees, we have increased efficiencies across agency lines,
working outside traditional boundaries, when reviewing and making




                                                                                  1
    recommendations concerning BOEMRE responsibilities. This was accom-
    plished in keeping with our goal of improving communications both within
    and outside of the OIG. These efforts successfully showcased the benefits
    of strategically joining with other Federal agencies. It also highlighted the
    OIG’s ability to collect, organize, and analyze critical data that inform deci-
    sion makers and compel action.

         On the other side of the United States, in western states where drought
    has become a way of life during summer months, the OIG evaluated the
    impact of fire mitigation in areas where private property intersects feder-
    ally managed wildlands. We found that the program could benefit from
    higher level advocacy, a critical step for national recognition and increased
    program funding. When successful, such advocacy grows out of well-estab-
    lished strategic planning activities that quantify mission, goals, and benefits
    of the program.

        In a return to a region where the OIG has had a marked impact dur-
    ing the past few years, we also completed an audit of Virgin Islands Port
    Authority capital improvement projects. Between 1998 and 2008 the Port
    Authority initiated 109 projects valued at $211.7 million. We found that
    administration of these projects has failed to address persistent procurement
    and financial reporting weaknesses. The result is projects with insufficient
    documentation and inadequate recordkeeping.

         The absence of a DOI scientific integrity policy was the focus of an-
    other OIG evaluation. In fiscal years 2008 and 2009, the Congress set aside
    more than $1.4 billion for DOI scientific research projects even though DOI
    lacked a scientific integrity policy. Recently, at the end of this last fiscal
    year, DOI created a policy that should help it benchmark activities, as well
    as track allegations of scientific misconduct. Our earlier evaluation under-
    scored the importance of creating just such a DOI policy, which could fill
    a critical gap for agencies whose mission and strategic objectives involve
    research and related scientific processes.

        Similarly, our audit of DOI’s International Technical Assistance Pro-
    gram (ITAP) revealed the absence of a clearly defined mission and operat-
    ing procedures. To ensure the effective management of funds provided for




2
technical assistance internationally, the program needs to rely less on ad
hoc decision making and more on a strategic analysis of its role and mis-
sion within DOI. In the coming months, DOI indicated that ITAP will be
developing a mission statement, seeking guidance on best practices, and
clearly defining its relationship with donor organizations.

     These and other activities recently conducted by the OIG demonstrate
the importance of an underlying blueprint or plan with mission and goals
that can adapt appropriately when circumstances change. As the OIG
evaluates the effectiveness of efficiencies used by DOI bureaus, we also
are doing the same for ourselves.




                                                  Burnoff of oil spilled in the Gulf of Mexico is moni-
                                                  tored to determine the efficiency of cleanup. Crude oil
                                                  combusts into sulfur dioxide, nitrogen dioxide, and other
                                                  components. Image courtesy of U.S. Coast Guard.




                                                                                                              3
    Strategy Management Office
    Overview
         The OIG’s reputation for excellence comes, in part, from its high
    quality products and services. Its sustained commitment to continuous
    improvement has been a driving force behind these accomplishments. In
    this spirit, OIG leadership began implementing a new strategic manage-
    ment system in early 2010. The new system, designed to be more trans-
    parent and collaborative, will also assist OIG to better identify high risk,
    high impact DOI programs, making most effective use of OIG limited
    resources.

        The result of the initial work was the development of a “strategy
    map.” This document summarizes the OIG’s planned objectives for the
    next several years and guides key decision making processes. The map is
    organized around four perspectives critical to fulfilling the OIG’s mission:
    effective use of financial resources; investment in people, learning, and
    growth; improved internal processes; and customer service. These four
    perspectives have a cause-and-effect relationship. The OIG’s commit-
    ment to fiscal stewardship allows it to invest in developing its employees’
    expertise. These individuals then work to achieve operational excellence,
    which furthers our ultimate goal of providing quality products and ser-
    vices to our customers.

         Within each of these perspectives, specific objectives have been
    identified. Measures developed for each objective will help to assess
    performance. Specific initiatives will help to close any performance gaps
    identified in each objective. Collectively, the objectives, measures, and
    initiatives provide a change program to help the OIG to continuously
    improve.

         In July 2010, the OIG established the Strategy Management Office to
    manage the strategic planning and implementation process. The Strategy
    Management Office supports the organization by assisting it with devel-
    opment of its strategy, integrating activities across the organization to
    implement the strategy, and ensuring the strategy is linked to other key
    processes evolving within the organization. Building the strategy requires
    this office to provide a common strategic frame of reference and under-
    standing throughout the OIG. Integrating the activities of OIG units is




4
necessary not just for strategy development, but also for all aspects of
implementation, including continual performance assessments and adap-
tation of the strategy based on changing needs and conditions. Finally, the
Strategy Management Office helps to ensure other functions, including
human capital, technology, resource management, key processes, and
quality are linked to strategy.

Strategic Objectives and Performance Measures
Fiscal Stewardship

     In coming years, the OIG will continue to challenge itself to use its
resources effectively. Implementing its two financial objectives will build
its efficiency in this area. By taking action to achieve the first objective,
obtain a budget to realize the strategic plan, the OIG plans to ensure that
budget requests are driven by strategic thinking. The second objective,
efficiently manage and use resources according to the strategic plan,
reflects our obligation to use resources in the most efficient and effective
way. Linking budget requests and spending to strategic goals, workloads,
and performance positions the OIG to identify potential cost-savings
quickly and improve efficient use of funds.

Development of People and Expertise

    An organization is only as effective as its people are skilled and mo-
tivated. Implementing the four objectives under this perspective will help
to ensure resources are used to develop a workforce with expertise in the
right areas, one that is motivated to meet customer needs.

    The first of these objectives, foster collaboration, continuous im-
provement, and innovation, aims to create a collaborative culture whereby
people with a diverse body of knowledge, skills, talents, and perspectives
learn from and contribute to one another’s successes and to the overall
success of the organization. Collaborative teams of investigators and
auditors have long been a staple of OIG work. The ongoing review and
investigation of events surrounding Deepwater Horizon illustrate the
increased value created when teams with diverse skills apply their unique
perspectives to the same problem. Cross-functional teams comprised of
auditors and investigators are addressing this complex situation. These
teams have proven to be more thorough and innovative than single
disciplinary teams.




                                                                                5
         The need for operational readiness in the face of unexpected events,
    emerging trends, and long-standing problems spurred our second objective:
    improve workforce planning. We are currently assessing our
    workforce to ensure that we have the right mix of knowledge,
    skills, and experience with which to respond quickly and capably
    to new and existing challenges.

        We will achieve our third objective, recruit, develop, and retain a
    quality workforce, by creating and maintaining an environment that at-
    tracts, motivates, and holds on to a diverse and multi-talented group of
    employees. To enhance job satisfaction and promote career development,
    OIG employees will be encouraged to acquire new skills and knowledge
    in areas important to the OIG, while honing existing skills. Programs and
    opportunities that advance a work life balance are another important facet
    of recruiting and retaining a skilled workforce in the 21st century. For
    example, enhanced telework opportunities recently have been extended to
    nearly all OIG employees.

        The final objective in this perspective, enable the organization through
    technology, supports our other objectives. A newly formed focus group
    of OIG staff will help the organization identify and use technology to aid
    operational efficiency through communication, knowledge management,
    and collaboration.

    Improvement of Internal Processes

        Operational excellence requires a systematic, continual review of
    internal processes. The four objectives in this perspective aim to improve
    internal OIG processes critical to our mission. These range from preventing
    fraud to improving communication.

        The first objective, focus on prevention, aims to prevent fraud, waste,
    and mismanagement in DOI programs by educating officials and assisting
    them in identifying areas of vulnerability. Building on the successes of the
    OIG’s Recovery Oversight Office, we will continue to identify high-risk
    DOI programs and work with DOI to reduce or eliminate risks.

        With fewer than 300 employees to cover the broad range of programs
    within DOI, the OIG must focus its resources on high risk–high impact ar-
    eas. The team assigned to the second objective, focus on high risk and high
    impact areas, is developing a risk assessment methodology to help identify
    and prioritize risks facing DOI.




6
     The purpose of the third objective, follow standard approaches to
efficient work processes, is to improve the efficiency of critical internal
processes by eliminating redundant steps, communicating standards, and
monitoring to minimize errors.

     The final objective in this perspective, improve internal and external
communication, aims to improve the quality and effectiveness of communi-
cations. During the past several months, the OIG has devoted resources to
building expertise in communication through targeted training. Employees
receiving this training are working to develop a robust communications
strategy.

Provision of Quality Services and Products to Customers

    Ultimately, the mission of the OIG is to provide quality services and
products to our customers that will help reduce waste, fraud, and misman-
agement. The OIG identified this area as critical to building and maintain-
ing customer confidence, ensuring that we provide valuable products and
services to our customers, that we are responsive to inquiries and requests,
and that we protect our objectivity and independence.

     The purpose of our first objective in this perspective is to provide the
highest quality product to our customers by understanding their needs,
emphasizing work that is most relevant to their mission, and delivering
our products and services in the most effective manner. We will achieve
this goal by creating a constant flow of communication between the OIG
and our customers. More specifically, the team for this objective, provide
accurate and actionable information that is relevant and timely, is identify-
ing key customers and developing a means of communication that can be
used on a regular basis to ascertain customer needs and perceptions of our
products and services. The pursuit of this objective will position the OIG to
sustain customer confidence and assure the value and impact of our work.

    Responding to complaints, concerns, and inquiries in a timely and
professional manner is an important component in being accountable and
transparent. The second objective, be responsive in an open and account-
able manner, will assist the OIG to ensure that requests are acted upon in a
timely, accountable manner.

    The purpose of our final objective, be objective and independent, is to
assure and sustain the OIG’s credibility. We will achieve this by continu-
ing to employ the highest professional standards and processes available to
safeguard our independence and ensure our objectivity.




                                                                                       7
                                                                         Back to Toc
Department of the Interior

                 DOI programs range from activities conducted by the
                 Office of the Special Trustee for American Indians to
                 the DOI International Technical Assistance Program that
                 assists with training and resource management in other
                 countries. Photo of Canyon de Chelly by Bryan Brazil.




        Louis Glanzman’s interpretation of
        travelers on the Mayflower. Part of
        a painting on wooden panels in the
        Glanzman collection.
Whereabouts Unknown:
Evaluating Actions to Locate
Indian Trust Account Holders
    The American Indian Trust Fund Management Reform Act estab-
lished the Office of the Special Trustee for American Indians (OST)
in 1994 to improve DOI’s management of the Indian Fiduciary Trust.
Currently, OST manages the largest land trust in the United States —
56 million acres of land. Leases, use permits, land sales, and interest
on these lands produce about $3.5 billion in trust funds, which OST
manages for 378,000 trust account holders.

     In 2005, OST hired private investigators to track down high-dol-
lar account holders on the Whereabouts Unknown list. They located
31 of the “top 100.” Nine of those located still appeared on the list
3 years later. OIG began an inspection to determine why individuals
located several years ago were still on that list.

     Since sharing our initial results with DOI officials, we have veri-
fied that OST has reconciled eight of these accounts and contacted
the guardians of the ninth account. While these accounts are now
considered resolved, the underlying issue of poor communication
between OST and other DOI agencies continues to impede OST’s
ability to reconcile its Whereabouts Unknown list.

    Further delaying reconciliation, some guardians of Whereabouts
Unknown account holders hesitate to resolve cases because some
States are not complying with the statutory requirement to exclude
supervised Individual Indian Monies accounts when determining
Medicaid eligibility.

Procurement Deficiencies
Plague the Virgin Islands
     The Virgin Islands Port Authority’s administration of multi-
million dollar capital improvement projects has left the Virgin Islands
Government vulnerable to fraud, waste, and mismanagement for
many years. Failure to address longstanding procurement and finan-
cial reporting deficiencies has hampered the Virgin Islands’ Govern-
ment’s ability to collect significant funds.

     Although the Port Authority has policies and procedures in place
that require it to competitively select contractors, it generally fails to



                                                                             9
     comply with its own regulations. Of the 12 capital improvement projects
     reviewed by the OIG, nine show procurement deficiencies. During these
     projects, collectively worth $75 million, the Port Authority either circum-
     vented or inadequately documented the procurement process.

          In addition, financial reporting suffered from a myriad of deficiencies
     that included inaccurate records of payments to contractors (totaling $1.3
     million), unreported payments, and unissued tax forms. Also, during the
     past 10 years, the Port Authority failed to prepare and issue IRS 1099 forms
     to its contractors. It also failed to report $84.3 million in payments to con-
     tractors. Using a conservative tax rate of 15 percent to calculate revenues
     lost to the Virgin Islands Government, the total of potentially lost funds is
     $12.6 million in much needed revenues during the years 1998 to 2008.

     Lack of Scientific Integrity Policy Remedied
         By publishing a scientific integrity policy in September 2010, DOI
     has begun to correct a longstanding weakness in its scientific endeavors.
     For years, DOI has operated without a scientific integrity policy. It has had
     no requirement to track allegations of scientific misconduct, which could
     have allowed scientific misconduct to go either unrecorded or unpunished.
     Without policies to protect the scientific community and public from flawed
     research, the public’s trust in DOI scientific decisions was at risk.

        Scientific research and development programs are essential to DOI’s
     mission to protect and manage the Nation’s natural and cultural resources.
     Through the years, the Congress has set aside billions of dollars to fund
     DOI scientific research. Nevertheless, until recently, DOI had no compre-
     hensive scientific integrity policy.

         Also, with the exception of the U.S. Geological Survey, DOI bureaus
     had no policy to consistently address scientific misconduct allegations. DOI
     also lacked a mechanism to collect bureau-level data, sometimes document-
     ed only at the field level, and report it.

         Scientific integrity is critical to ensure that the science employed by
     DOI fulfills its intended goals and objectives. As the 2010 fiscal year ended,
     DOI issued a Secretarial Order, establishing a policy to help ensure the in-
     tegrity of DOI’s scientific products. DOI is continuing to refine this policy,
     which ultimately will be published in the Federal Register as a promulgated
     regulation. The Order directs the Deputy Secretary to create a Departmental
     Manual chapter incorporating eight scientific integrity principles.




10
ITAP Needs Clear Practices and Procedures
    In 1995, the U.S. Agency for International Development (USAID)
signed an agreement with DOI that led to the creation of the International
Technical Assistance Program (ITAP). ITAP facilitates capacity building
in other countries, using the technical expertise of DOI employees.
Funds come from donor organizations and average approximately
$1 million annually.

     Technical experts whose travel and per diem are covered by donor
funds provide on-site technical assistance that may involve mentoring,
train-the-trainer workshops, and procurement training. ITAP uses memo-
randa of understanding to facilitate necessary purchases. These may cover
programmatic and administrative services such as monitoring project
progress and finances.

     Since ITAP operates in the absence of a DOI-defined mission and
without documented operating procedures, ITAP may identify more with
its donors than with DOI. When asked to provide copies of its founding
documents, ITAP offered only an interagency agreement with USAID.
Over all, ITAP operates on an ad hoc basis and has great latitude in
determining how it will operate. Clarification and formal documentation
of ITAP’s mission and role within DOI would improve this situation,
as would drafting and implementing internal policy to help ensure that
ITAP complies with all statutory and regulatory requirements that protect
Federal funds.

Stronger Program Management
Needed for Office of Insular Affairs
     The Office of Insular Affairs (OIA) has limited resources and author-
ity to accomplish major policy goals in the Insular Areas. These areas
consist of three sovereign states (the Republic of the Marshall Islands,
the Republic of Palau and the Federated States of Micronesia) and four
U.S. territories. Self-governing, these regions are island-based, with small
populations, which impacts the costs of doing business, as well as recruit-
ing and retaining skilled personnel.

    OIA lacks the technical expertise to help reduce profound and
longstanding Insular Areas problems. Responsibility for improving local
services rests with each Insular Area government. Beyond this constraint,




                                                                               11
     however, OIA could increase its success in three areas—grants man-
     agement, advocacy, and performance measurement—as a way to assist
     Insular Area governments.

          Grants management is hindered by problems with the allocation
     of staff, physical location of field representatives, and assessments of
     ongoing programs. Advocacy for the islands also could be improved if
     OIA field representatives were located in Insular Areas to assist with key
     policy issues rather than serving as desk officers in Washington, DC.
     Finally, performance measures need to cover meaningful activities over
     which OIA has responsibility rather than those for which OIA has
     no control.

         Overall, OIA must improve its grants management and staff use.
     Increased on-the-ground oversight is vital for the successful use of
     grant funds to ensure the dollars create positive outcomes for the
     Insular Areas.

     BLM Boundaries: Reassessing the
     Potential of High Risk Lands
          The Cadastral Survey program of the Bureau of Land Management
     (BLM) has an opportunity to identify and perform surveys on high risk
     lands where significant potential revenues could be collected by either
     DOI or Indian tribes. DOI has outdated, unreliable survey information on
     more than 1 million boundary miles. This encompasses almost 90 per-
     cent of the 385 million acres of Federal and Indian lands for which DOI
     is responsible in the western United States (excluding Alaska).

         Proper survey and management of high risk lands, for which only
     antiquated survey data currently is available, has the potential to generate
     hundreds of millions of dollars from both surface and subsurface re-
     sources. Such income could come from fee or royalty collection resulting
     from (a) unauthorized uses that include rights-of-way violations and (b)
     improper removal of oil, gas, timber, or other resources from Federal or
     Indian lands.




12
     The Cadastral Survey program, however, has not developed an ad-
equate system to identify high risk lands or attributes in need of survey.
Transactions on lands with unreliable boundary surveys and high value
resources have been routinely processed and approved without the ben-
efit of boundary evidence review by survey personnel. The importance
of performing cadastral work on these lands is not adequately understood
by many BLM and Bureau of Indian Affairs personnel. As a result, the
survey program is not properly used.

    BLM estimated the cost to survey and perform the work necessary to
modernize all boundary lands to be in the billions of dollars. We believe,
however, that only a small fraction of antiquated boundaries will be a
high priority for survey once a risk management system is developed and
boundary risks are clearly established. Furthermore, if a portion of rev-
enues recovered could be retained by BLM, those funds could be used to
perform high priority surveys on the highest risk boundaries.

National Interagency Fire Center:
An Evaluation
    Information technology is a critical component of firefighting opera-
tions and management. Contributing its expertise across all DOI bureaus,
the National Interagency Fire Center must comply with the individual
policies and standards of each bureau it serves. On occasion, this can
impede the Center’s efficient, cost effective operation and even put fire-
fighters and the public at higher risk of injury or death.

     OIG testing demonstrated that the center’s existing technology
lacked capability to make user accounts secure. Radios proved to be nei-
ther certified nor accredited for operation. Bureaus with a presence at the
center demonstrated inconsistent processes among themselves and incon-
sistencies even within the same bureau. Encryption of mobile devices
was also incomplete. This included BlackBerry devices, which lacked
encryption or password protection. Also, nothing prevented unauthorized
computers from connecting to the center’s network. Vulnerability scan-
ning identified 714 vulnerabilities for one application, thereby demon-
strating that unpatched applications make computers vulnerable
to exploitation.




                                                                              13
     Privacy Impact Assessment
     Evaluation Completed
          Privacy Impact Assessments (PIAs) are tools used to identify and cat-
     egorize risks associated with privacy data management. PIAs document the
     status and implementation of Office of Management and Budget Guidance
     for Implementing the Privacy Provisions of the E-Government Act of 2002.

         OIG found that more than half of the PIAs associated with DOI infor-
     mation technology (IT) systems had not been completed in a manner that
     facilitated identification of privacy risks associated with sensitive informa-
     tion. We found widespread, significant weaknesses in 57 percent of the 102
     PIAs we assessed. Only 8 percent of the PIAs demonstrated good comple-
     tion processes, while 35 percent were only satisfactory.

          As a result, we found that bureaus applied processes inconsistently
     for PIA completion. Some bureaus updated PIAs when their systems were
     reaccredited. However, most general support system PIAs did not identify
     all the subsystems they supported or evaluate them for privacy data. Also,
     the management system that could be used to enable IT security program
     oversight contained inaccurate PIA information. That such inaccurate data
     exists is a hindrance to DOI’s ability to manage the IT program.

         Title III of the E-Government Act identifies the importance of agencies
     implementing a consistent information security program. Significant over-
     lap exists in the PIA requirement under DOI’s Privacy Program, however,
     as well as under the IT Security Program. Neither program applies consis-
     tently across DOI, although DOI continues to attempt to create standardiza-
     tion across bureaus. Sporadic implementations have resulted in inconsistent
     PIAs across DOI.

     Could Your Home Be Saved:
     Evaluation of Wildland Urban
     Interface Community Assistance
         The Nation’s wildland fire problems have worsened during the past
     decade, particularly in areas where the growing number of homes abut-
     ting wildlands have increased the threat of fires destroying personal prop-
     erty and endangering lives. In 2009, the Congress requested data on DOI
     wildland fire activities to better understand costs associated with Federal




14
firefighting, as well as damage to private property. OIG reviewed Federal
wildland fire activities, focusing on the impact of Federal fire money ap-
plied to wildland urban interface communities.

     Federal efforts to help communities develop and fund community
wildfire protection plans have produced tangible fire mitigation impacts
at the community level and established effective Federal–community
networks. In spite of benefits to communities, the return on Federal
investments could have been greater had DOI provided full guidance and
oversight through its wildland fire management programs administered
through its bureaus. Four DOI agencies, as well as the U.S. Forest Ser-
vice in the Department of Agriculture, share responsibility for fighting
fires on Federal property.

    Overall, the community assistance function suffered from lack of
national and Departmental advocacy, program planning, and an effective
reporting mechanism to track the impact of Federal grants on wildfire
mitigation. Without such national level advocacy, cooperative efforts
between communities and Federal firefighting networks may diminish or
disappear over time.




                                                 California road sign demonstrates the importance of
                                                 Federal-community	fire	preparedness	networks	when	
                                                 Federal and private property intersect.




                                                                                                       15
     Evaluation of Windows Active Directory
          DOI primarily uses Microsoft Windows Active Directory services to
     manage users, groups of users, computer systems, and services across its
     bureaus and offices. Our evaluation of these services demonstrated that se-
     curity and monitoring investments are not fully used. We found no standard-
     ization across DOI and, in some cases, none within bureaus. An inadequate
     separation of duties exists for system administrators within DOI’s Enterprise
     Infrastructure Division.

         Essentially, continuous monitoring of Active Directory services has not
     been consistently integrated throughout bureaus and offices. Also, various
     Active Directory functions have been duplicated across DOI and its bureaus,
     and offices.

         Investments intended to enhance information security related to Active
     Directory functions have been underused. This impairs DOI’s ability to pro-
     vide a useful oversight function. Furthermore, we noted that only 34 percent
     of bureau and office servers are connected to DOI security information and
     event management infrastructure. Moreover, we found $500,000 invested in
     an asset inventory, audit, and logging system, which sat idle.

     BLM Employee Sentenced
         On February 22, 2010, a former BLM abandoned mine lands coordinator
     in California signed a plea agreement admitting he made false statements in
     an official writing.

          Required to submit confidential financial disclosure forms annually, the
     employee failed to disclose any positions held or income received outside of
     his Government employment. He knowingly and willfully failed to disclose
     that he operated a business that earned him more than $200,000 while also
     working as a BLM employee. This failure prevented BLM from assess-
     ing whether any conflicts of interest existed with his Government position,
     through which he had significant influence over the choice of contractors for
     abandoned mine lands restoration.

         On July 19, 2010, the BLM employee was sentenced to 12-months
     probation, fined $3,750, and ordered to pay BLM restitution of $16,838.80.




16
BLM Official Accepted Gratuities
from Energy Company
     In March 2009, a referral from the Government Accountability Of-
fice (GAO) alleged that Steven Henke, a former BLM district manager in
Farmington, New Mexico, had developed relationships that placed him too
close to unnamed oil and gas industry officials. The allegation suggested
he made decisions to benefit companies based on his personal relation-
ships, rather than the good of BLM. GAO claimed to have uncovered
evidence related to these allegations while conducting a survey at BLM’s
Farmington District and speaking with numerous BLM staff members.

     Although the information provided by GAO was vague and second-
hand, OIG’s investigation revealed that Henke did take gifts from Wil-
liams Exploration and Production (Williams E&P), a prohibited source, in
the form of golf tickets, lodging, and meals. OIG also found that Henke
misused BLM travel funds to attend the 2007 PGA Championship in
Tulsa, Oklahoma, as a guest of Williams E&P. Although Henke conducted
some limited Government business during this trip, he admitted that
BLM work was a secondary motive and that the primary purpose was
the tournament.

    In addition, during 2007 Henke solicited approximately $8,000 in
donations from Williams E&P for a relative’s baseball teams. Also, in
2007, Merrion Oil & Gas, a prohibited source, provided Henke’s relative
with an internship. In 2009, Henke attended the Masters Golf Tournament
in Augusta, Georgia, with Williams E&P. He made some repayment to the
company for ticket and lodging expenses. Henke did not disclose any of
the gifts from these sources on his annual confidential financial disclosure
reports. Our investigation found no evidence of any corrupt or official acts
Henke took to benefit the company in exchange for the things of value
he received.

    This investigation was referred to the U.S. Attorney for the District
of New Mexico, which declined prosecution. On May 10, 2010, OIG
provided BLM with our preliminary findings on Henke’s misconduct.
Subsequently, BLM began compiling Douglas Factors related to Henke’s
conduct. Henke retired prior to any bureau action.




                                                                               17
     Oil and Gas Companies Given
     Notice of BOEMRE Inspections
        Former Regional Director Don Howard issued policy to require all BO-
     EMRE inspectors to announce inspections for Maritime Security facilities.
     Our investigation found that BOEMRE inspectors preferred to conduct unan-
     nounced inspections but felt pressure to notify Royal Dutch Shell in advance.

         The issue arose during an investigation stemming from allegations that
     BOEMRE inspectors engaged in unethical conduct, including misuse of
     helicopter support to attend lunches paid for by oil and gas companies and to
     view wildlife. Additional allegations charged Lake Jackson supervisors with
     rescinding valid incidents of noncompliance or safety violations issued to oil
     and gas companies. The investigation found no evidence to substantiate the
     majority of these allegations but did uncover an instance where a BOEMRE
     supervisor allowed a well to go back into production after an inspector shut it
     down due to a safety hazard. Both the supervisor and inspector agreed that a
     miscommunication occurred and that the platform would be re-inspected.

     BOEMRE Tightens Ethics Rules
          On August 6, 2010, BOEMRE officials announced that they would be
     developing a new internal oversight system for BOEMRE inspections of
     oil and gas platforms in the Gulf of Mexico, that inspectors could no longer
     perform official duties related to a former oil and gas industry employer, that
     inspectors would be given situational ethics training, that inspectors would
     be prohibited from accepting any meals from offshore operators, and that
     BOEMRE would be expanding its job-applicant pool through job fairs at col-
     leges and technical schools.

         The investigation that spurred these changes was initiated after the OIG
     received an anonymous letter, dated October 28, 2008, addressed to the U.S.
     Attorney’s office in New Orleans, Louisiana. The letter alleged that a num-
     ber of unnamed BOEMRE employees had accepted gifts from oil and gas
     production company representatives. The complainant specifically suggested




18
that the employees were accepting gifts, including hunting and fishing
trips, from the Island Operating Company (IOC), an oil and gas produc-
tion company working on oil platforms regulated by DOI.

     During the investigation, a number of BOEMRE employees at the
Lake Charles, Louisiana, district office admitted to receiving lunches, ac-
cepting gifts, and attending sporting events featuring oil and gas company
sponsored teams in the years before 2007. A culture of remuneration from
oil and gas companies prevailed in the BOEMRE Lake Charles office
until New Orleans supervisor Don Howard was investigated and later
terminated in January 2007 for accepting gifts. Following his termination,
this behavior appears to have drastically declined.

     During the investigation, two BOEMRE employees at the Lake
Charles office also admitted to using illegal drugs during their employ-
ment. Many of the inspectors also had emails that contained inappro-
priate humor and pornography. Finally, between June and July 2008, a
BOEMRE inspector conducted four inspections on IOC platforms while
in the process of negotiating and later accepting employment with the
company. These findings were presented to the U.S. Attorney’s Office for
the Western District of Louisiana, which declined prosecution. Following
the OIG investigation, BOEMRE took action against eight employees.
This included the removal of one employee from Government service.



                                                  Offshore in the Gulf of Mexico in September as
                                                  agencies assess needed changes associated with
                                                  the oil and gas extraction process.




                                                                                                   19
     USBR Manager Threatens to Fire Employee
     After Girlfriend Complains
         On January 11, 2010, the OIG opened an investigation based on allega-
     tions that a U.S. Bureau of Reclamation* (USBR) Yuma area office manager
     threatened an employee with job termination if he did not end a personal
     relationship with a second employee who had complained about Yuma Office
     hiring practices.

          The investigation revealed that the manager and other Yuma office
     managers had been aware of the relationship between the two employees in
     August 2009 but did not address it until 3 months later. When they did, their
     action followed the announcement of a project management position opening
     on November 23, 2009, concerning which the second employee threatened to
     file a complaint for unfair hiring practices.

         The second employee did file a complaint with the Office of Special
     Counsel (OSC) in early December 2009. In mid-December 2009, managers
     advised the first employee that his job would be threatened because of his
     relationship. The timing of the advice, coupled with the improper hiring prac-
     tices and the OSC action taken by the second employee, led to a reasonable
     belief that the USBR employee had been threatened with termination. Action
     by USBR is pending.

     FWS Employee Found Guilty of Fraud
         On April 26, 2010, Kevyn Paik, a heavy equipment operator for the U.S.
     Fish and Wildlife Service (FWS), Kauai, Hawaii, and former FWS employee
     Alan Duarte were found guilty in U.S. District Court of Hawaii of two counts
     each of mail fraud and two counts each of wire fraud. Additionally, Paik was
     found guilty of one count of conflict of interest.

         A Federal jury found that Paik conspired with Duarte to illegally obtain
     subcontracts for pond enhancement/restoration work at Hanalei National
     Wildlife Refuge. Paik and Duarte concealed their involvement through the
     use of two straw man companies. Paik used his position as a Federal em-
     ployee to ensure Duarte was awarded the contracts, and the two then divided
     the proceeds.

     *Correction from original release that read "Bureau of Recreation."




20
    On October 4, 2010, Duarte was sentenced to 12-months probation.
Sentencing for Paik has been continued. On August 31, 2010, both Paik
and Duarte were debarred from Federal procurement and non-procure-
ment programs until November 29, 2012.

Tribal Officials Sentenced to Prison  
     In an initial indictment filed in 2008 and two superseding indictments
filed in 2009, Archie Baumann, President, First Dakota Enterprises, Ft.
Pierre, South Dakota, was charged with bribery for payments he made to
officials serving the Crow Creek Sioux Tribe (CCST), Fort Thompson,
South Dakota. In those same indictments, CCST Tribal Council Vice
Chairman Randy Shields, Treasurer Norman Thompson, Sr. and Secre-
tary Thomas Thompson were charged with accepting bribes and retaliat-
ing against an informant who assisted OIG in this investigation. In ad-
dition, Shields was charged with making false statements to OIG agents
when interviewed during the investigation.

    The bribery charges related to more than $20,000 in payments Bau-
mann allegedly paid to OIG’s informant and the above named officials to
finance business with CCST and a $383,000 contract to construct three
houses at Crow Creek Tribal Schools. CCTS received several million
dollars each year for its programs and operations from the Bureau of
Indian Education.

    On March 29, 2010, in U.S. District Court, Pierre, South Dakota,
Baumann, Shields, and Norman Thompson, Sr., each pleaded guilty
to one count of bribery. On the same date, Thomas Thompson pleaded
guilty to one count of retaliating against OIG’s informant.

    On June 9, 2010, Norman Thompson, Sr., was sentenced to 50
months in prison, fined $12,000, and ordered to pay restitution to
CCST in the amount of $1,000. The combined fine and restitution
($13,000) is the amount that Norman Thompson, Sr., received in bribes
from Baumann.

    On June 28, 2010, Randy Shields was sentenced to 40 months in
prison, fined $11,000, and ordered to pay restitution to CCST in the
amount of $1,000. The combined fine and restitution ($12,000) is the
amount that Randy Shields received in bribes from Baumann.




                                                                              21
         On August 2, 2010, Thomas Thompson was sentenced to 20 months
     in prison and 24-months probation and fined $2,000. OIG’s investigation
     showed that Thomas Thompson received $2,000 in bribes from Baumann.

         Baumann’s sentencing is scheduled for November 8, 2010. This
     investigation was jointly conducted by the OIG and Federal Bureau
     of Investigation.

     Officials Plead Guilty to Theft  
          In an initial indictment filed in 2008 and two superseding indictments
     filed during an internal audit of the Fort Peck Tribe’s Credit Program, in-
     formation uncovered thefts exceeding $800,000 by three former Bureau of
     Indian Affairs (BIA) employees and four tribal employees. The BIA em-
     ployees had signature authority on the Credit Branch checking account and
     allegedly issued themselves and the tribal employee unauthorized loans and
     overtime payments. One of the three BIA employees involved in the scheme
     is deceased.

         On January 20, 2010, a True Bill of Indictment was returned outlining
     13 felony charges of fraud and conspiracy. The indictment alleged that two
     BIA employees and four tribal employees were involved in a 10-year
     criminal conspiracy to embezzle more than $1 million from the Tribe’s
     credit program.

          Between June 22, 2010, and August 10, 2010, the six BIA and tribal
     employees pleaded guilty to various felonies and agreed to make restitution
     for the total amount of $901,729 to the Fort Peck Credit Program,
     as follows:

     •	   Shelly Pipe pleaded guilty to three felony charges and agreed to make
          restitution in the amount of $65,475;

     •	   Paul Bemer pleaded guilty to three felony charges and agreed to make
          restitution in the amount of $90,479;

     •	   Evadna Running Bear pleaded guilty to two felony charges and agreed
          to make restitution in the amount of $236,170;

     •	   Connie Smith pleaded guilty to two felony charges and agreed to make
          restitution in the amount of $152,963;

     •	   Dolly Crowe pleaded guilty to two felony charges and agreed to make
          restitution in the amount of $166,820; and



22
•	   Angelita Headdress pleaded guilty to two felony charges and agreed
     to make restitution in the amount of $189,822.

   Sentencing for Shelly Pipe, Paul Bemer, Evadna Running Bear,
Connie Smith, Dolly Crowe, and Angelita Headdress occured on
October 21, 2010, in the district of Great Falls, Montana.

    In addition, on June 16, 2010, a True Bill of Indictment was returned
against a seventh individual, Edward O. Smith, husband of Connie Smith.
Edward Smith was charged with one count of theft from the Fort Peck
Credit Program. On September 14, 2010, he pleaded guilty to the felony
theft and agreed to make restitution in the amount of $37,338. Sentencing
has been scheduled for December 20, 2010.

Employee Received Wages
After Being Indicted
    On July 13, 2010, Shelly Pipe, a loan specialist with the Office of In-
dian Energy and Economic Development, pleaded guilty to Federal theft
charges following indictment, which was unsealed on February 17, 2010.

    Pipe was suspended without pay on April 20, 2010, nearly 3 months
after the indictment became public. Our report has been referred for ac-
tion to the Assistant Secretary for Indian Affairs.



                                                 Montana landscape. Photo by Bryan Brazil.




                                                                                             23
     Tribal Staff Indicted in Alaska
         On July 20, 2010, a former administrator for the Chuloonawick Native
     Village (CNV) and a former bookkeeper were indicted by a Federal grand
     jury in Anchorage, Alaska, on evidence of stealing more than $125,000 in
     Federal funds through a Bureau of Indian Affairs subsistence contract. Each
     defendant was charged separately on three counts: one count of theft from
     an Indian tribal organization and two counts of theft of Federal funds. Both
     were arraigned on August 18, 2010.

          OIG uncovered evidence that between 2005 and 2007, the former
     administrator stole approximately $105,315 through unauthorized use of
     the tribe’s credit card—primarily in the form of cash withdrawals—and
     payroll advances in the form of checks that she and her bookkeeper wrote
     to themselves, in addition to their salaries, and that they never repaid. Also,
     the bookkeeper stole approximately $21,845 in unpaid payroll advances
     and unauthorized direct deposits that she transferred from the CNV account
     into her personal bank account. OIG also collected evidence suggesting that
     during the time of her theft, the administrator earned more than $110,000 in
     unreported gambling winnings.

     American Samoa Employee Indicted
         On September 9, 2010, an employee of the Department of Education
     (DOE), American Samoa, was indicted on one count each of witness tam-
     pering and obstruction of justice.

         The employee participated in an underlying scheme to defraud the
     American Samoan DOE by conspiring with others to purchase school bus
     parts and services that were never delivered. He and his co-conspirators
     then pocketed the money from the phony transactions. He was indicted for
     witness tampering and obstruction of justice when a Federal grand jury
     found probable cause to believe he met with a co-conspirator and instructed
     him to burn incriminating documents in anticipation of a grand jury subpoe-
     na. When confronted by investigators, the former DOE employee admitted
     he told the co-conspirator to burn the documents.

          The employee was arrested on September 15, 2010, and appeared in
     U.S. District Court in Honolulu, Hawaii. He will be arraigned in U.S. Dis-
     trict Court in Washington, D.C.




24
                                                                                Back to Toc
Coral gardens create colorful underwater environments in
warm	Pacific	waters.




                                                           25
          Appendices


The western mountain ranges of the United States
are a patchwork of color created by weather, vegetation,
and light.
                                                                                                                                                      Appendix One




STATISTICAL HIGHLIGHTS
Investigative Activities
Cases Closed................................................................................................................................................ 306
Cases Opened.............................................................................................................................................. 293
Hotline Complaints/Inquiries Received.................................................................................................. 149

Criminal Prosecution Activities
Indictments/Informations................................................................................................................................ 9
Convictions.......................................................................................................................................................12
Sentencings......................................................................................................................................................... 5
      - Jail............................................................................................................................................ 110 months
      - Criminal Penalities.................................................................................................................... $115,870
      - Probation............................................................................................................................... 102 months
Criminal Matters Referred for Prosecution.............................................................................................23
Criminal Matters Declined This Period.....................................................................................................18

 Civil Investigative Activities
Civil Referrals.................................................................................................................................................... 6
Civil Declinations.............................................................................................................................................. 4
Civil Settlement............................................................................................................................ $30,900,000

 Administrative Investigative Activities
Removals............................................................................................................................................................. 1
Resignations/Retirements............................................................................................................................... 6
Suspensions...................................................................................................................................... 7 (83 days)
Downgrade......................................................................................................................................................... 1
Reprimands/Counseling.................................................................................................................................11
Reassignments/Transfers................................................................................................................................. 1
General Policy Actions...................................................................................................................................13
Contractor Debarments...............................................................................................................................19
Notice of Civil Penalty................................................................................................................1 ($313,210)
Bureau Non-Responsive*..............................................................................................................................14
		      (Bureau of Indian Affairs – 12; Bureau of Indian Education – 2)
* Bureau Non-Responsive is a category indicating failure by a bureau to respond to referral for administrative action.

                                                                                                                                                                          27
     Appendix One




        STATISTICAL HIGHLIGHTS
        Audit and Evaluation Related Activities
        Reports Issued........................................................................................................................................... 26

        	     Performance Audits, Financial Audits, Evaluations, Inspections, and Verifications.................17
        	     Contract and Grant Audits................................................................................................................ 9

        Audit and Evaluation Impacts
        Total Monetary Impacts*.......................................................................................................$46,565,778
        	     Questioned Costs (includes unsupported costs).....................................................$33,918,517
        	     Recommendations That Funds Be Put to Better Use..............................................$12,647,261



        Audit and Evaluation Recommendations Made.................................................................................. 64

        Audit and Evaluation Recommendations Closed.............................................................................313



       Recovery Oversight Office Activities
        Products Issued......................................................................................................................................... 18

        	     Advisories.............................................................................................................................................. 7
        	     Other Products**.............................................................................................................................. 11


       Recommendations Made........................................................................................................................... 17

       Recommendations Closed.......................................................................................................................... 6


       * Includes Federal and non-Federal funds.
       ** Other Products are not listed in Appendix II and are not published.




28
                                       Appendix One




Resource issues in the western United States challenge
the Department of the Interior to balance growing
demand with sustainable use. Image by Bryan Brazil.




                                                         29
 Appendix Two



                Reports Issued During the
                6-Month Reporting Period
                This listing includes all reports issued during the 6-month period that ended
                September 30, 2010. It provides report number, title, issue date, and monetary
                amounts identified in each report (* Funds To Be Put To Better Use, ** Questioned
                Costs, and *** Unsupported Costs).


                Audits, Evaluations, and Verifications
                Bureau of Reclamation
                WR-VS-BOR-0010-2010	            Verification Review of Recommendations One and
                                                Three from Our December 1998 Audit Report, “Iden-
                                                tification of Unneeded Acquired Lands, Bureau of
                                                Reclamation” (99-I-133) (09/03/2010).

                Indian Affairs
                ER-IN-BIA-0002-2010	            Office of Inspector General’s Independent
                                                Report on the Office of National Drug Control
                                                Policy (ONDCP) 2009 Accounting Report -
                                                Indian Affairs (05/10/2009).

                Insular Area
                VI-IN-VIS-0003-2009	            Final Audit Report - Capital Improvement Projects
                                                Administrative Functions - Procurement Deficiencies
                                                Plague the Virgin Islands Port Authority (09/08/2010)
                                                *$12,600,000 **$5,540,300.

                Minerals Management Service
                (Now BOEMRE and Office of Resources Revenue)
                C-IN-MMS-0007-2008	             Final Audit Report - Minerals Management Service:
                                                Royalty-in-Kind Program’s Oil Volume Verification
                                                Process (05/25/2010).

                Multi-Office Assignments
                WR-EV-MOA-0014-2009	            Evaluation Report - Interior Lacks a Scientific
                                                Integrity Policy (04/28/2010).




30
                                                                                Appendix Two




C-IN-MOA-0001-2009	         Final Audit Report - Department of the Interior’s
                            Management of Land Boundaries (07/16/2010)
                            **$27,000,000.

ER-EV-MOA-0012-2009	
          .                 Wildland Urban Interface: Community Assistance
                            (07/30/2010).

WR-VS-MOA-0009-2010	        Verification Review of Six Recommendations
                            from Our March 2008 Evaluation Report Y-EV-
                            MOA-0001-2008, “Controls Over the Transit
                            Benefit Program at the Department of the Interior”
                            (08/23/2010).

WR-VS-MOA-0011-2010	        Verification Review of Three Recommendations
                            from Our July 2008 Evaluation Report Y-EV-
                            MOA-0003-2008, “Absent Immediate Action the
                            Department of the Interior Faces Looming Leasing
                            Crisis” (09/24/2010).

X-IN-MOA-0006-2010	         Independent Accountants’ Report on Agreed-Upon
                            Procedures for the U.S. Department of the Interior,
                            U.S. Department of Education, U.S. Department
                            of Transportation, National Aeronautics and Space
                            Administration, Nuclear Regulatory Commission,
                            National Science Foundation, and Social Security
                            Administration (09/28/2010).

WR-VS-MOA-0012-2010	        Verification Review of Recommendations One,
                            Two, and Three of Evaluation Report No. W-
                            EV-MOA-0001-2007, “Sole Source Contracting:
                            Culture of Expediency Curtails Competition in DOI
                            Contracting,” February 2008 (09/30/2010).

National Park Service
WR-VS-NPS-0013-2010	        Verification Review of Recommendations Three,
                            Five, Six, and Seven of Audit Report No. C-IN-
                            NPS-0013-2004, “The National Park Service’s
                            Recording of Facility Maintenance Expenditures,”
                            January 2005 (09/24/2010).

Office of Insular Affairs
WR-EV-OIA-0007-2008	        Evaluation of Office of Insular Affairs’ Program
                            Management (05/25/2010).




                                                                                               31
 Appendix Two




                VI-IN-OIA-0004-2010	      Final Audit Report - Capital Improvement
                                          Projects Administrative Functions: Procurement
                                          Deficiencies Plague the Virgin Islands Port
                                          Authority (09/08/2010).

                Office of the Secretary
                ER-IN-OSS-0009-2009	      Audit of the International Technical Assistance
                                          Program (07/21/2010).

                Office of the Special Trustee
                WR-IS-OST-0006-2009	      Whereabouts Unknown: An evaluation of actions
                                          taken to locate Whereabouts Unknown individuals
                                          by the Office of the Special Trustee for American
                                          Indians (06/10/2010).

                U.S. Geological Survey
                WR-VS-GSV-0008-2010	      Verification Review of Recommendations One,
                                          Two, and Three of Evaluation Report ER-EV-
                                          GSV-0002-2009, “USGS Store Not Protecting Pay-
                                          ment Card Information,” June 2009 (09/22/2010).


                Contract and Grant Audits
                National Park Service
                K-CX-NPS-0001-2010	       Optimum Services, Inc., Settlement Proposal for
                                          Termination for Convenience of the Government
                                          under Contract 1443C2000091200, Hole in the Do-
                                          nut Remediation in Everglades, With the National
                                          Park Service (05/27/2010) **$881,350 ***$21,000.

                U.S. Fish and Wildlife Service
                R-GR-FWS-0004-2010	       U.S. Fish and Wildlife Service Wildlife and Sport
                                          Fish Restoration Program Grants Awarded to the
                                          Commonwealth of Virginia Department of Game
                                          and Inland Fisheries, From July 1, 2007, Through
                                          June 30, 2009 (05/24/2010).




32
                                                                        Appendix Two




R-GR-FWS-0008-2010	   U.S. Fish and Wildlife Service Wildlife and
                      Sport Fish Restoration Program Grants Awarded
                      to the Commonwealth of Virginia, Virginia Ma-
                      rine Resources Commission, From July 1, 2007,
                      Through June 30, 2009 (06/07/2010).

R-GR-FWS-0003-2010	   U.S. Fish and Wildlife Service Wildlife and
                      Sport Fish Restoration Program Grants Awarded
                      to the State of Illinois, Department of Natural
                      Resources, From July 1, 2007, Through June
                      30, 2009 (07/09/2010) *$47,261 **$166,411
                      ***$4,599.

R-GR-FWS-0006-2010	   U.S. Fish and Wildlife Service Wildlife and
                      Sport Fish Restoration Program Grants Awarded
                      to the State of Oklahoma, Department of Wild-
                      life Conservation, From July 1, 2007, Through
                      June 30, 2009 (07/29/2010).

R-GR-FWS-0009-2010	   U.S. Fish and Wildlife Service Sport Fish Res-
                      toration Program Grants Awarded to the Com-
                      monwealth of Massachusetts, Division of Marine
                      Fisheries, From July 1, 2007, Through June 30,
                      2009 (08/12/2010).

R-GR-FWS-0010-2010	   U.S. Fish and Wildlife Service Sport Fish Res-
                      toration Program Grants Awarded to the State
                      of Alabama, Department of Conservation and
                      Natural Resources, Marine Resources Division,
                      From October 1, 2007 Through September 30,
                      2009 (08/12/2010) **$7,536 ***$297,321.

R-GR-FWS-0005-2010	   U.S. Fish and Wildlife Service Wildlife and
                      Sport Fish Restoration Program Grants Awarded
                      to the State of Alabama, Department of Con-
                      servation and Natural Resources, Wildlife and
                      Freshwater Fisheries Division, From
                      October 1, 2007, Through September 30, 2009
                      (08/27/2010).




                                                                                       33
 Appendix Two




                Single Audit Quality Control Reviews
                Multi-Office Assignments
                B-QC-MOA-0005-2010	         Altman, Rogers & Company Audit of Atka IRA
                                            Council FYE 09/30/2009 (08/27/2010).


                Recovery Oversight Office Reviews
                Bureau of Land Management
                ROO-ROA-BLM-3003-2010	      Bureau of Land Management Renewable Energy
                                            Recovery Act Projects (05/07/2010).

                ROO-ROA-BLM-3004-2010	      Bureau of Land Management Contract with the
                                            Chicago Horticultural Society (07/15/2010).

                Indian Affairs
                ROO-ROA-BIA-2008-2010	      Indian School Replacement, Improvement and
                                            Repair Programs (04/27/2010).

                Multi-Office Assignments
                ROO-ROA-MOA-1018-2010	 LEED Certified New Construction Projects
                                       (04/27/2010).

                National Park Service
                ROO-ROA-NPS-6002-2010	      Historic Black Colleges and Universities Applica-
                                            tion Evaluation (04/09/2010).

                ROO-ROA-NPS-6003-2010	      Historic Preservation Training Center ARRA Com-
                                            pliance 	(07/15/2010).

                U.S. Geological Survey
                ROO-ROA-GSV-7001-2010-1	 Follow-up on U.S. Geological Survey
                                         Indefinite-Delivery/Indefinite-Quantity
                                         Contract 08ERCN0017, et al. (09/28/2010).




34
                                      Appendix Two




Active communities across the United States place
increasing demand on energy resources and necessitate
the growth of alternative energy technologies.




                                                        35
 Appendix Three




     Monetary Resolution Activities
     Table I: Inspector General Reports With Questioned Costs*


     		                                     Number of Reports	   Questioned Costs	   Unsupported Costs


     A.	   For which no management
     	     decision had been made by the
     	     commencement of the reporting
     	     period.	                                  5	            $1,270,831	           $615,630

     B.	 Which were issued during the
     	 reporting period.	                            3	           $28,073,360	             $25,599

     		       Total (A+B)	                           8	           $29,344,191	           $641,229

     C.	 For which a management decision
     	 was made during the reporting
     	 period. 	                                     6	            $1,833,226	           $440,264

     		       (i) Dollar value of
     		       recommendations that
     		       were agreed to by
     		       management. 		                                       $1,833,226	           $440,264

     		       (ii) Dollar value of
     		       recommendations that
     		       were not agreed to by
     		       management. 		                                                $0	                 $0

     D.	 For which no management
     	 decision had been made by the
     	 end of the reporting period. 	                2	           $27,510,965	           $200,965




      *Does not include nonfederal funds.




36
                                                                         Appendix Three




Monetary Resolution Activities
Table II: Inspector General Reports With
Recommendations That Funds Be Put to Better Use
		                                          Number of Reports	    Dollar Value


A.	   For which no management
	     decision had been made by the
	     commencement of the reporting
	     period.	                                     12	           $14,395,471

B.	 Which were issued during the
	 reporting period. 	                                1	              $47,261

		       Total (A+B)	                              13	           $14,442,732

C.	 For which a management decision
	 was made during the reporting period. 	          11	           $11,946,228

	 (i)	 Dollar value of recommendations
		 that were agreed to by management. 		                           $668,822

	 (ii)	 Dollar value of recommendations
		 that were not agreed to by management. 		                     $11,277,406

D.	 For which no management decision
	 had been made by the end of the
	 reporting period. 	                                2	           $2,496,504




                                                                                          37
 Appendix Four




                 Summary of Reports Over 6 Months
                 Old Pending Management Decisions
                 This listing includes a summary of audit and evaluation reports that were more than 6
                 months old on September 30, 2010, and still pending a management decision. It
                 provides report number, title, issue date, and number of unresolved recommendations.


                 Audits and Evaluations
                 Indian Affairs
                 NM-EV-BIE-0001-2008	            Evaluation of Controls to Prevent Violence at Bureau
                                                 of Indian Education Operated Education Facilities
                                                 (08/01/2008); 3 Recommendations.

                 WR-IV-BIA-0001-2009	            BIA Alaska Regional Indian Reservation Roads
                                                 Program Rife with Mismanagement and Lacking Pro-
                                                 gram Oversight (02/09/2009); 3 Recommendations.

                 Insular Areas
                 P-EV-FSM-0001-2007	             Kosrae State, Federated States of Micronesia: Prop-
                                                 erty Accountability Process Needs To Be Improved
                                                 (10/17/2007); 3 Recommendations.

                 VI-EV-VIS-0002-2009	            Evaluation Report - Energy Production in the Virgin
                                                 Islands (12/28/2009); 4 Recommendations.

                 VI-IS-VIS-0004-2009	            Inspection Report - Security Improvements at the
                                                 Governor’s Private Residence (01/19/2010);
                                                 4 Recommendations.

                 Multi-Office Assignments
                 C-IN-MOA-0004-2007	             Abandoned Mine Lands in the Department of
                                                 the Interior (07/24/2008); 1 Recommendation.

                 C-EV-MOA-0004-2009	             Evaluation Report - Geothermal Royalties
                                                 (03/09/2010); 1 Recommendation.




38
                                                                              Appendix Four




X-IN-MOA-0018-2009	       Independent Auditors’ Report on the Department
                          of the Interior Financial Statements for Fiscal
                          Years 2009 and 2008 (11/16/2009);
                          2 Recommendations.

Office of the Secretary
WR-EV-OSS-0005-2008	      Flash Report - Department of the Interior: Risk-
                          ing People and Property by Flying Airplanes in
                          Excess of Federal Aviation Administration and
                          Manufacturer Specifications (02/09/2009);
                          1 Recommendation.

WR-EV-OSS-0012-2009	      Evaluation Report on the Department of the Inte-
                          rior’s Appraisal Operations (12/23/2009);
                          2 Recommendations.

U.S. Fish and Wildlife Service
C-IS-FWS-0007-2010	       Inspection Report - Museum Collections:
                          Preservation and Protection Issues with Collec-
                          tions Maintained by the Fish and Wildlife Service
                          (01/29/2010); 2 Recommendations.

Contracts and Grants
Insular Areas
P-GR-NMI-0003-2005	       Evaluation of Saipan Public Health Facility
                          Project: Oversight of Capital Improvement
                          Projects, Commonwealth of the Northern Mariana
                          Islands (06/08/2007); 1 Recommendation.

U.S. Fish and Wildlife Service
R-GR-FWS-0008-2004	       U.S. Fish and Wildlife Service Federal Assis-
                          tance Grants Administered by the State of Idaho,
                          Department of Fish and Game, From July 1, 2001,
                          Through June 30, 2003 (09/30/2005);
                          15 Recommendations.

R-GR-FWS-0029-2003	       U.S. Fish and Wildlife Service Federal Assistance
                          Grants Administered by the State of Washington,
                          Department of Fish and Wildlife, From July 1,
                          2000, Through June 30, 2002 (03/31/2004);
                          1 Recommendation.


                                                                                              39
 Appendix Five




                 Summary of Reports Over 6 Months
                 Old Pending Corrective Action
                 This is a listing of audit and evaluation reports more than 6 months old with
                 management decisions for which corrective action has not been completed. It
                 provides report number, title, issue date, and the number of recommendations
                 without final corrective action. These audits and evaluations continue to be
                 monitored by the Branch Chief for Internal Control and Audit Follow-up, As-
                 sistant Secretary, Policy, Management and Budget, for completion of
                 corrective action.

                 Bureau of Land Management
                 C-IN-BLM-0013-2005	          Public Safety Issues at the Saginaw Hill Property,
                                              Bureau of Land Management (03/15/2005);
                                              1 Recommendation.

                 C-IN-BLM-0011-2008	          Bureau of Land Management - Mining Claimant
                                              Administration (05/04/2009); 1 Recommendation.

                 CR-EV-BLM-0002-2009	         Evaluation of Bureau of Land Management’s Oil and
                                              Gas Lease Auction Process (08/26/2009);
                                              5 Recommendations.

                 Bureau of Reclamation
                 C-IS-BOR-0006-2010	          Inspection Report - Museum Collections: Preservation
                                              and Protection Issues with Collections Maintained by
                                              the Bureau of Reclamation (01/29/2010);
                                              1 Recommendation.

                 Indian Affairs
                 2003-I-0055	                 Evaluation of the Bureau of Indian Affairs’ Process
                                              to Approve Tribal Gaming Revenue Allocation Plans
                                              (06/11/2003); 1 Recommendation.

                 NM-IS-BIA-0002-2008	         Inspection of the Implementation of the Motor
                                              Vehicle Operation Policy, Bureau of Indian Affairs
                                              (07/31/2008); 4 Recommendations.




40
                                                                              Appendix Five




WR-IV-BIA-0001-2009	       BIA Alaska Regional Indian Reservation
                           Roads Program Rife with Mismanagement
                           and Lacking Program Oversight (02/09/2009);
                           2 Recommendations.

ER-IN-BIA-0014-2009	       Office of Inspector General’s Independent Report
                           on the “ONDCP (Office of National Drug Con-
                           trol Policy) Performance Summary Report - BIA”
                           (11/10/2009); 6 Recommendations.

C-IS-BIA-0004-2010	        Inspection Report - Museum Collections:
                           Preservation and Protection Issues with
                           Collections Maintained by the Bureau of Indian
                           Affairs (01/29/2010); 2 Recommendations.

NM-EV-BIE-0003-2008	       Evaluation Report - School Violence Prevention
                           (02/03/2010); 4 Recommendations.

Multi-Office Assignments
2002-I-0045	               Recreational Fee Demonstration Program -
                           National Park Service and Bureau of Land
                           Management (08/19/2002); 1 Recommendation.

E-IN-MOA-0008-2004	        Department of the Interior Workers’ Compensation
                           Program (05/09/2005); 1 Recommendation.

C-IN-MOA-0049-2004	        Department of the Interior Concessions
                           Management (06/13/2005); 1 Recommendation.

C-IN-MOA-0007-2005	        U.S. Department of the Interior Radio
                           Communications Program (01/30/2007);
                           5 Recommendations.

W-IN-MOA-0086-2004	        Proper Use of Cooperative Agreements Could
                           Improve Interior’s Initiatives for Collaborative
                           Partnerships (01/31/2007); 1 Recommendation.

C-IN-MOA-0004-2007	        Abandoned Mine Lands in the Department of the
                           Interior (07/24/2008); 3 Recommendations.




                                                                                              41
 Appendix Five




                 C-EV-MOA-0009-2008	    Evaluation Report on Oil and Gas Production on
                                        Federal Leases: No Simple Answer (02/27/2009);
                                        3 Recommendations.

                 WR-EV-MOI-0006-2008	   Evaluation of the Department of the Interior’s
                                        Accountability of Desktop and Laptop Computers
                                        and their Sensitive Data (04/24/2009);
                                        2 Recommendations.

                 WR-EV-MOI-0008-2008	   Employee Relocation, U.S. Department of the
                                        Interior (09/21/2009); 3 Recommendations.

                 WR-IS-MOA-0019-2009	   Follow-up to OIG’s 2008 Evaluation Report,
                                        “Interior Misstated Achievement of Small
                                        Business Goals by Including Fortune 500 Com-
                                        panies (Report No. W-EV-MOI-0003-2008)”
                                        (09/29/2009); 1 Recommendation.

                 X-IN-MOA-0018-2009	    Independent Auditors’ Report on the Department of
                                        the Interior Financial Statements for Fiscal Years
                                        2009 and 2008 (11/16/2009); 4 Recommendations.

                 C-IN-MOA-0010-2008	    Audit Report - Department of the Interior Mu-
                                        seum Collections: Accountability and Preservation
                                        (12/16/2009); 12 Recommendations.

                 C-EV-MOA-0003-2009	    Evaluation Report - Department of the Interior
                                        Roads Programs: The Dangers of Decentralization
                                        (02/01/2010); 1 Recommendation.

                 CR-IS-MOA-0004-2009	   Inspection Report - BLM and MMS
                                        Beneficial Use Deductions (03/08/2010);
                                        8 Recommendations.

                 C-EV-MOA-0004-2009	    Evaluation Report - Geothermal Royalties
                                        (03/09/2010); 4 Recommendations.

                 X-IN-MOA-0002-2010	    Management Letter Concerning Issues Identified
                                        During the Audit of the Department of the Interior
                                        Financial Statements for Fiscal Years 2009 and
                                        2008 (03/10/2010); 2 Recommendations.




42
                                                                            Appendix Five




National Park Service
1998-I-0406	              Follow-up of Recommendations Concerning
                          Utility Rates Imposed by the National Park
                          Service (04/15/1998); 5 Recommendations.

C-IS-NPS-0008-2010	       Inspection Report - Museum Collections:
                          Preservation and Protection Issues with Collec-
                          tions Maintained by the National Park Service
                          (01/29/2010); 2 Recommendations.

Office of the Special Trustee
Q-IN-OST-0002-2008	       Independent Auditors’ Report on the
                          Individual Indian Monies Trust Funds
                          Financial Statements for Fiscal Years 2008
                          and 2007 (11/18/2008); 1 Recommendation.

Q-IN-OST-0004-2008	       Independent Auditors’ Report on the Tribal and
                          Other Trust Funds Financial Statements for Fis-
                          cal Years 2008 and 2007 (11/18/2008);
                          1 Recommendation.

Office of the Secretary
WR-EV-OSS-0005-2009	      Aviation Maintenance Tracking and Pilot
                          Inspector Practices - Further Advances Needed
                          (04/14/2009); 2 Recommendations.

U.S. Fish and Wildlife Service
97-I-1305	                Audit Report on the Automated Law
                          Enforcement System, U.S. Fish and Wildlife
                          Service (09/30/1997); 1 Recommendation.

X-IN-FWS-0024-2006	       Independent Biennial Auditors’ Report on the
                          Expenditures and Obligations Used by the
                          Secretary of the Interior in the Administration
                          of the Wildlife and Sport Fish Restoration Pro-
                          grams for Fiscal Years 2003 Through 2004 and
                          Fiscal Years 2005 Through 2006 (05/14/2009);
                          2 Recommendations.




                                                                                            43
 Appendix Five




                   K-CX-FWS-0004-2009	                     Costs Associated with the WECC, Inc. Request
                                                           for Equitable Adjustment under Contract No.
                                                           401817C012 with the U.S. Fish and Wildlife
                                                           Service (09/30/2009); 1 Recommendation.

                   Insular Areas*
                   V-IN-VIS-0004-2005	                     Controls Over Video Lottery Terminal
                                                           Operations, Government of the Virgin Islands
                                                           (06/08/2007); 2 Recommendations.

                   P-EV-FSM-0001-2007	                     Kosrae State, Federated States of Micronesia;
                                                           Property Accountability Process Needs To Be
                                                           Improved (10/17/2007); 5 Recommendations.

                   V-IN-VIS-0011-2006	                     Collection of Outstanding Taxes and Fees,
                                                           Government of the Virgin Islands (01/10/2008);
                                                           3 Recommendations.

                   V-IN-VIS-0001-2007	                     Administrative Functions, Roy Lester Schneider
                                                           Regional Medical Center, Government of the
                                                           Virgin Islands (07/28/2008); 4 Recommendations.

                   P-EV-GUA-0002-2008	                     Tax Collection Activities, Government of Guam,
                                                           Revitalized Tax Collection and Enforcement Effort
                                                           Needed (11/26/2008); 2 Recommendations.

                   V-IN-VIS-0003-2007	                     U.S. Virgin Islands Workers’ Compensation Ben-
                                                           efits at Risk (11/28/2008); 3 Recommendations.

                   VI-IS-VIS-0002-2008	                    Final Evaluation Report Virgin Islands
                                                           Police Department Evidence Integrity at Risk
                                                           (03/31/2009); 10 Recommendations.




                 *These Insular Areas reports contain
                 recommendations made specifically
                 to Insular Area governors and other
                 Insular Area officials, who do not
                 report to the Secretary of the Interior
                 and who are not subject to the policy,
                 guidance, and administrative oversight
                 established by the Assistant Secretary
                 – Policy, Management and Budget.




44
                                                                                                  Back to Toc
                                        Appendix Five




DOI monitors the welfare of many species, including
Alaskan wild salmon.




                                                        45
General Information



       Cross-References to the Inspector General Act
                                                                                                          Page
      Section 4(a)(2)             Review of Legislation and Regulations                                   N/A*

      Section 5(a)(1)             Significant Problems, Abuses, and Deficiencies                           9-25

      Section 5(a)(2)             Recommendations for Corrective Action With Respect to Significant       40-44
                                  Problems, Abuses, and Deficiencies

      Section 5(a)(3)             Significant Recommendations From Agency’s Previous Reports on           38-39
                                  Which Corrective Action Has Not Been Completed

      Section 5(a)(4)             Matters Referred to Prosecutive Authorities and Resulting Convictions     27

      Section 5(a)(5)             Matters Reported to the Head of the Agency                               N/A

      Section 5(a)(6)             Audit Reports Issued During the Reporting Period                        30-34

      Section 5(a)(7)             Summary of Significant Reports                                           9-25

      Section 5(a)(8)             Statistical Table: Questioned Costs                                       36

      Section 5(a)(9)             Statistical Table: Recommendations That Funds Be Put to Better Use         37

      Section 5(a)(10)            Summary of Audit Reports Issued Before the Commencement of the
                                  Reporting Period for Which No Management Decision Has Been Made         38-39

      Section 5(a)(11)            Significant Revised Management Decisions Made
                                  During the Reporting Period                                              N/A

      Section 5(a)(12)            Significant Management Decisions With Which
                                  the Inspector General Is in Disagreement                                 N/A

      Section 5(a)(13)            Information Described Under Section 804(b) of the Federal Financial
                                  Management Improvement Act of 1996                                       N/A




       N/A: Not applicable to this reporting period.




46
                                                  General Information




U.S. Department of the Interior
  Office of Inspector General
        1849 C St. NW
      Mail Stop 4428, MIB
     Washington, DC 20240
        www.doioig.gov
      202.208.4618 (phone)
      202.208.6062 (fax)




                         Canyon de Chelly in winter. Photo by Bryan Brazil.




                                                                              47
